WAIVER

Supreme Court, U.S.
FILED

OCT 1 0 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-447

Keith Puntenney, et al.

Iowa Utilities Board, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
[I] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance. as Counsel of Record for the following respondent(s):

Iowa Utilities Board

El I am a member of the Bar of the Supreme Court of the United States.

El I am not presently a member of the Bar of this Court. Should a response be reqhested, the response
will be filed by a Bar >
bel
Signature
Date.
(Type or print) Name

Samantha Norris
[11 Mr.

Firm

El Mrs.

El Miss

Iowa Utilities Board

Address

1375 E. Court Avenue

City & State
Phone

I] Ms.

Des Moines, Iowa

(515) 725-7330

Zip
Email

50319

samantha.norris@iub.iowa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Eduardo E. Santacana, Jay Rapaport-Counsel for Petitioners

RECEIVED
OCT 21 2019
OFFICE OF THE CLERK
SUPREME COURT, U S.

